       AUDIT REPORT

Final Audit Report on the U.S. Fish and
  Wildlife Service Federal Assistance
      Grants Administered by the
    Commonwealth of Puerto Rico,
      Department of Natural and
    Environmental Resources, from
  July 1, 2001, through June 30, 2003




        Report No. R-GR-FWS-0014-2004
                     SEPTEMBER 2005
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                       External Audits
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191


                                                                             September 19, 2005


                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the Commonwealth of Puerto Rico, Department of Natural
           and Environmental Resources, from July 1, 2001, through June 30, 2003
           (No. R-GR-FWS-0014-2004)

       This report presents the results of our audit of costs incurred and claimed by the
Commonwealth of Puerto Rico, Department of Natural and Environmental Resources
(Department), under Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS).
The audit included claims that totaled approximately $9.3 million on FWS grants that were open
during the State’s fiscal years ended June 30, 2002 and 2003 (see Appendix 1). The audit also
covered the Department’s compliance with applicable laws and regulations and FWS guidelines,
including those related to the collection and use of hunting license revenue and the reporting of
program income.

       We identified unreported program income of $38,577 and found that the Department may
not have adequate assent legislation. We also found that the Department needs to make
improvements in its accounting system and license certification, grant administration, and asset
management processes.

       FWS Region 4 provided a response to the draft of this report dated June 16, 2005, which
included a copy of the Department’s June 3, 2005 response to FWS. We summarized the FWS
and Department responses after the recommendations and added our comments regarding the
responses. The status of the recommendations is summarized in Appendix 3.
       In accordance with the Interior Departmental Manual (361 DM 1), please provide us with
your written response to the recommendations included in this report by December 19, 2005.
Your response should include information requested in Appendix 3. If you have any questions
regarding this report, please contact Mr. Owen Nicholson, Audit Team Leader, or me at (703)
487-5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service




                                               2
                                             Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. However,
Puerto Rico is exempt from the matching requirements of the Acts. The Acts also specify that
state hunting and fishing license revenues cannot be used for any purpose other than the
administration of the state’s fish and game agencies.

Scope, Objective, and Methodology
We performed our audit of Federal Assistance grants to the Commonwealth of Puerto Rico
(Commonwealth) at the request of FWS. We conducted our audit at the Puerto Rico Department
of Natural and Environmental Resources (Department) headquarters in San Juan, Puerto Rico.
The audit work at the Department included claims that totaled approximately $9.3 million on
FWS grants that were open during the Commonwealth’s fiscal years ended June 30, 2002 and
2003 (see Appendix 1). We also visited two natural reserves, three reservoirs, one fish hatchery,
one State forest, one wildlife refuge, and one boat access facility (see Appendix 2). The
objective of our audit was to evaluate:

      ¾ the adequacy of the Department’s accounting system and related internal controls;
      ¾ the accuracy and eligibility of the direct and indirect costs claimed under the Federal
        Assistance grant agreements with FWS;
      ¾ the adequacy and reliability of the Department’s hunting and fishing license fees
        collection, certification, and disbursement processes;
      ¾ the adequacy of the Department’s asset management system and related internal controls
        with regard to purchasing, maintenance, control, and disposal; and
      ¾ the adequacy of the Commonwealth’s compliance with the Acts’ assent legislation
        requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants, interviews with employees to ensure that personnel costs charged to
the grants were supportable, and a review of the Department’s use of hunting license revenues to


1
    As amended, 16 U.S.C. § 669 and 16 U.S.C. § 777.

                                                       3
determine whether those revenues were used solely for fish and wildlife program purposes. We
did not evaluate the economy, efficiency, or effectiveness of the Department’s operations.

Prior Audit Coverage
On August 4, 1999, we issued audit report No. 99-E-728, “U.S. Fish and Wildlife Service
Federal Aid Grants to the Commonwealth of Puerto Rico Department of Natural and
Environmental Resources, for Fiscal Years Ended June 30, 1995 and 1996.”

We reviewed this report and followed up on all significant findings to determine whether they
had been resolved prior to our review. Two findings in this report, relating to asset management
and accounting system reconciliations, had not been resolved satisfactorily and are addressed in
the Results of Audit section of our report.

We also reviewed the significant findings relative to the Federal Assistance grants addressed in
the Department’s Single Audit report for the fiscal year ended June 30, 2000. This report also
had a finding on accounting system reconciliations.




                                                4
                                    Results of Audit
We identified the following issues regarding the Department’s administration of its Federal
Assistance program:

   A. Program income of $38,577 was being applied properly but not reported to FWS.
   B. The Commonwealth’s assent legislation may be inadequate.
   C. Department accounting system records were not reconciled with the official
      Commonwealth records.
   D. The annual license certification process needs improvement.
   E. Grant administration needs improvement.
   F. Project level accounting was not accomplished.
   G Asset management controls need improvement.




A. Program Income

The Department earned $75,046 in revenue under grant No. F-42-3, but reported only $36,469 as
program income on the Financial Status Report (SF-269). The income was generated by angler
surveys conducted by Department staff under its Federal Assistance program. The surveys were
also sent to a contractor that maintained a fisheries database for a federal agency that had a
similar program, and the contractor paid the Department for each survey it used in its database.

According to 43 CFR §12.65, program income is gross income received by a grantee directly
generated by a grant-supported activity. Program income should be deducted from total grant
costs to determine net costs on which the grantor’s share will be based or, with FWS approval,
added to the project funds to further eligible program objectives or used to meet the cost sharing
or matching requirement. In addition, the grant agreement should include an estimate of
program income anticipated for the grant period.

The payments received from the contractor did not always include information on the period
covered. Because there are several factors that influenced the amount of income earned and
when it was received, FWS Region 4 advised the Department to apply program income received
after the end of the grant period to the next year’s grant or another Sport Fish grant. The
Department properly applied program income in accordance with the FWS guidance but did not
report income received after the end of the grant period that was not applied to the grant.

As a result, the Department did not report $38,577 of program income from fishing surveys
completed under grant No. F-42-3.




                                                 5
       Recommendation
       We recommend that FWS resolve the issue on how program income received after the
       grant period should be reported for future grants.

       Department Response

       The Department concurred with the finding, provided a detailed explanation of the
       situation, and stated that it submitted to FWS a revised Financial Status Report for grant
       No. F-42-3 showing the program income applied, and a plan for how it will use the
       balance. The Department further stated that in the future, all program income would be
       reported on the final Financial Status Reports.

       FWS Response

       FWS stated that it concurred with the finding and recommendation.

       OIG Comments
       While both FWS and the Department concurred with the finding, FWS did not state
       whether it agreed with the Department’s response or whether it had received and
       approved the revised Financial Status Report. Therefore, additional information is
       needed concerning the actions taken or planned to resolve the finding and implement the
       recommendation. This information should be included in the corrective action plan.


B. Assent Legislation

Puerto Rico has passed laws (in Spanish) for the conservation of fish and wildlife; however, it
appears that it has not passed legislation assenting to the Restoration Acts.

Both the Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish
Restoration Act require that before any monies are apportioned to a State under the Acts, the
State must pass legislation which assents to the provisions of the Acts, and shall have passed
laws for the conservation of fish and wildlife that include a prohibition against the diversion of
hunting and fishing license fees paid by hunters and sport fishermen for any purpose other than
the administration of the State game and fish agency.

The Department worked with FWS to develop laws for the conservation of fish and wildlife and
to require that revenues from the sales of hunting and fishing licenses be used only for fish and
wildlife programs. Therefore, Department officials believed that the laws complied with all of
the requirements of the Acts.

If the Commonwealth has not passed legislation that assents to the Restoration Acts, it may not
be entitled to receive funds apportioned under the Acts.


                                                 6
       Recommendations
       We recommend that FWS determine whether:

       1. The laws passed by the Commonwealth constitute adequate assent legislation.

       2. The Department may continue to participate in the Federal Assistance program.

       Department Response
       The Department did not concur with Recommendation 1 and stated that the
       Commonwealth has passed two laws that it believes comply with the requirements of the
       Restoration Acts. The Department provided a detailed explanation of the two laws and
       their requirements for the conservation of fish and wildlife and the creation of special
       funds to manage the associated programs. The Department further stated that the Audit
       Guide “does not establish that the assent of the State with relation to the federal
       legislation must be expressed.”

       FWS Response

       FWS stated that it concurred with the finding and recommendations and commented that
       it will consider the Department’s response by determining whether the language in the
       Puerto Rican statues complies with the Restoration Acts.

       OIG Comments
       Regarding the Department’s comment on the Audit Guide, the purpose of the Guide is to
       provide guidance on conducting Federal Assistance audits, and it does not have the same
       authority as laws or regulations. The assent requirement is contained in the Restoration
       Acts and the Code of Federal Regulations (50 CFR § 80.3). The regulation states, “A
       State may participate in the benefits of the Act(s) only after it has passed legislation
       which assents to the provisions of the Act . . .”

       While FWS concurred with the finding and recommendation, it stated it would need to
       review the laws to determine whether they comply with the requirements of the
       Restoration Acts. Therefore, we consider that finding unresolved and the
       recommendations not implemented.


C. Accounting System Reconciliation
Our prior audit report identified inadequacies with the Department’s accounting system,
including the inability to reconcile the accounting records maintained by the Department’s
federal funds accountant with the accounting records maintained by the Puerto Rico Treasury
Department (the official accounting records). The report recommended that the Department
develop written policies and procedures for the accounting of federal funds by grant consistent

                                                7
with State accounting. The Department concurred with the recommendation and indicated it
would develop written policies and procedures to establish a comprehensive accounting system
that could be reconciled with Treasury Department records. However, “The Manual of
Procedures for the Registration of Federal Funds Received by the Department of Natural and
Environmental Resources” (Manual), which was prepared in response to the recommendation,
states:

       “As of the date of this Manual (January 2004) a system that will facilitate the integration
       of the register kept by the Department of Natural and Environment Resources (DNER)
       with the financial information included in the PRIFAS (Puerto Rico Integrated Financial
       Accounting System) has not been implemented.

       We understand that it is necessary to establish an accounting system for the federal funds
       in the DNER that will facilitate all the procedures described in this Manual and at the
       same time will integrate how each financial transaction will be included in a General
       Ledger that can be reconciled with the financial information presented in the PRIFAS
       system.”

In addition, the Department’s Single Audit for the year ending June 30, 2000, indicated that the
Department’s accounting system did not provide reasonable assurance that the accounting
records were complete and included all significant transactions when compared with reports
issued by the Treasury Department.

In accordance with 43 CFR § 12.60, “a State must expend and account for grant funds in
accordance with State laws and procedures for expending and accounting for its own funds.
Fiscal control and accounting procedures . . . must be sufficient to:

        •   Permit preparation of reports required by this part and the statutes authorizing the
            grant; and
        •   Permit the tracing of funds to a level of expenditures adequate to establish that such
            funds have not been used in violation of the restrictions and prohibitions of
            applicable statutes.”

This condition resulted from inadequate management and inconsistent application of the
accounting and financial reporting controls and procedures.

Accordingly, the Department did not have assurance that the information reported on its
Financial Status Reports was consistent with the actual cost data contained in the official
accounting records because the Department’s accounting records used to prepare the reports
were not reconciled to the official accounting records. As a result, the Department and FWS did
not have assurance that financial data was accurate, complete, and reliable to make informed
administrative decisions and to determine compliance with applicable laws, regulations, and
grant requirements.




                                                 8
       Recommendation
       We recommend that FWS require the Department to establish a comprehensive
       accounting system that can be reconciled with the financial information presented in the
       PRIFAS.

       Department Response
       The Department concurred with the finding regarding the need to reconcile financial
       information. The Department also stated, however, that the lack of reconciliations was
       due mainly to the lack of adequate staff and not to the lack of an adequate accounting
       system. The Department added that it has requested funds to contract for an accounting
       assistant to reconcile the financial information. The Department also stated the current
       system is providing for the preparation of all required financial reports.

       FWS Response

       FWS stated that it concurred with the finding and recommendation.

       OIG Comments
       While the FWS concurred with the finding and recommendation, it did not state whether
       it agreed with the Department’s response or identify specific actions that would be taken
       to address the recommendation. Therefore, additional information is needed concerning
       the actions taken or planned to resolve the finding and implement the recommendations.
       This information should be included in the corrective action plan.


D. Hunting License Certifications

The Department completed and submitted annual License Certifications for license years (LYs)
2003 and 2004 for hunting licenses sold. We reviewed these certifications and found minor
errors were made in counting and reporting the total licenses sold.

According to 50 CFR § 80.10, the number of persons holding paid licenses to hunt or fish for
sport or recreation shall be furnished to the Director of the U.S. Fish and Wildlife Service and
shall be certified as accurate by the director of the State fish and wildlife agency.

The Department used a combination of computer-generated data and manual counting
procedures to derive the total number of hunters holding paid licenses that was reported in the
annual certification. The reporting errors were minor, and resulted from simple addition errors
and, in one case, duplicate reporting of one group of licenses. Better controls over the process
should eliminate these types of errors.




                                                 9
We were told that the Department has been authorized to sell recreational fishing licenses, and
that the potential license sales could far exceed the number of hunting licenses sold. While the
current license certification process may be adequate (with improved controls) for the volume of
hunting license sales (about 400 a month), the process would be cumbersome for a significantly
larger activity. The Department is currently exploring various options related to license sales data
gathering and revenue collection. With that in mind, the need for a process to achieve an
accurate count of licenses sold, including the elimination of duplicate license holders should be
addressed promptly.

       Recommendations
       We recommend that FWS:

       1. Work with the Department to develop appropriate processes and procedures to ensure
          that the number of fishing and hunting license holders reported in the annual
          certification is accurate.

       2. In the interim, require the Department to establish controls to ensure the accuracy of
          the number of hunting license holders reported in the annual license certifications.

       Department Response
       The Department concurred with the finding but stated that due to the small amount of
       hunting licenses sold (fishing licenses are not currently sold) the errors were not
       significant. The Department added that it would begin selling fishing licenses later this
       year and would be implementing a Point of Sales system by June 2006. In the interim,
       the current system will be evaluated and improved to avoid errors.

       FWS Response

       FWS stated that it concurred with the finding and recommendation.

       OIG Comments
       While the FWS concurred with the finding and recommendation, it did not state whether
       it agreed with the Department’s response or identify specific actions that would be taken
       to address the recommendation. Therefore, additional information is needed concerning
       the actions taken or planned to resolve the finding and implement the recommendations.
       This information should be included in the corrective action plan.

E. Grant Administration
During the course of our audit, we noted that for 38 of the 47 grants open during the audit period,
either the performance periods were extended or extensions to file final Financial Status Reports
were approved by FWS. We also observed that 33 of those grants did not expend all grant funds.


                                                10
In discussions with FWS personnel, we were told that the Department has reverted $450,000 of
funds over several years. FWS was concerned that the Department could revert up to $750,000
of its sport fish and wildlife apportionments if grant funds were not expended as approved.

The Department and FWS approve each grant agreement based on an identified need, the project
objectives, and the expected results or benefits. The project objectives detail what is to be
accomplished and specify the funding, staffing resources, and performance period. The FWS
Service Manual (522 FW 2) also requires the Department to accomplish planned work within the
grant agreement period.

We inquired as to why grant objectives could not be accomplished without time extensions. We
were told that there were administrative impediments, including the following:

       •   A cumbersome requisition process required up to seven approvals for purchases, even
           though the Accounting Manual we were provided required only four approvals. Our
           review of 52 purchases found an average of 68 elapsed days between the requisition
           date and the purchase order issuance, and an average of 74 days elapsed between the
           purchase order date and receipt of the item ordered.

       •   Upper management officials did not approve requisitions for grant-related equipment
           and travel requests for grant-related seminars and conferences. These disapprovals
           resulted in multiple submissions of requisitions to gain approval, appropriation of
           equipment from other projects to accomplish grant objectives, and missed
           opportunities for Department staff to obtain guidance and training needed to
           accomplish grant-related program objectives effectively.

       •   The Department did not hire employees critical to accomplishing grant objectives and
           approved in grant agreements; the lack of staff contributed to the Department’s
           inability to accomplish grant-related work without time extensions.

These conditions could jeopardize accomplishment of Federal Assistance grant objectives and
result in the reversion of grant funds.

       Recommendation
       We recommend that FWS work with the Department to establish procedures that
       eliminate impediments to accomplishing grant objectives within the grant period.

       Department Response
       The Department concurred with the finding and stated that the procedure for acquisition
       of goods and services was being redesigned to require a maximum of five signatures. In
       addition, after being informed of the situation, the Governor directed all agencies to fill
       all vacant positions that have federal funds approved.




                                                11
           FWS Response

           FWS stated that it concurred with the finding and recommendation.

           OIG Comments
           While the FWS concurred with the finding and recommendation, it did not state whether
           it agreed with the Department’s response or identify specific actions that would be taken
           to address the recommendation. Therefore, additional information is needed concerning
           the actions taken or planned to resolve the finding and implement the recommendation.
           This information should be included in the corrective action plan.


F. Project Level Accounting
Several grants were comprised of projects 2 , each of which had a separate budget. However, the
Department did not accumulate the actual costs of these projects for comparing actual costs to
the corresponding budgeted amount. Other grants had written approval to accumulate costs at
the grant level, so there was no requirement to accumulate costs by project on those grants. The
following grants with a Federal share exceeding $100,000 did not have the approval:


                                                                         Grant Amount/
               Grant No.                       Description               Federal Share
               F-16-14            Freshwater Fisheries Investigations      $148,090
               F-19-12            Sport Fish Activities - Guanica           142,710
               F-19-13            Sport Fish Activities - Guanica           112,237
               F-27-12            Evaluation of Boat Anchor Damage          158,894
               F-27-13            Evaluation of Boat Anchor Damage          301,852
               F-29-11            Sport Fish Activities – Lucchetti         193,761
               F-29-12            Sport Fish Activities – Lucchetti         192,355
               F-34-11            Sport Fish Activities - Guajataca         171,931
               F-35-7             Maricao Fish Hatchery O & M               151,638
               F-35-8             Maricao Fish Hatchery O & M               439,952
               F-47-1             Sport Fish Activities – La Plata          377,555
               FW-1-32            Sport Fish & Wildlife Coordination        266,943
               FW-8-10            Sport Fish & Hunting - Boqueron           122,850
               FW-8-11            Sport Fish & Hunting - Boqueron           109,794
               W-15-12            Monitoring Game Bird Population           135,451
               W-21-4             Population Densities Columbids            190,141
               W-23-1             Avian Conservation - Karstic              143,132
               W-23-3             Avian Conservation - Karstic              133,486
                                     Totals                              $3,492,772


2
    Includes projects, studies, and jobs.


                                                       12
While 43 CFR §12.70 generally allows grantees to re-budget within the approved direct cost
budget to meet unanticipated requirements, certain types of post-award budget changes require
the prior written approval of the awarding agency. For non-construction projects,
43 CFR §12.70 (c) requires grantees to obtain the prior approval of the awarding agency when
the following is anticipated: “(ii) Unless waived by the awarding agency, cumulative transfers
among direct cost categories, or, if applicable, among separately budgeted programs, projects,
functions, or activities which exceed or are expected to exceed ten percent of the current total
approved budget, whenever the awarding agency’s share exceeds $100,000.”

Department officials were aware of the requirement but indicated that accumulating and
monitoring grant expenditures at the project level would be too cumbersome because the
agreements were complex and usually included several projects. In addition, they indicated that
the budgeted amounts were only used when a project was not completed and the corresponding
amount was to be deleted from the grant.

Since the actual costs of each project were not accumulated or monitored, there was no assurance
that the amount budgeted for a specific project was an accurate representation of the funds
necessary to accomplish the work required. In addition, there was no way to verify whether the
budgeted amounts were exceeded or whether more than 10 per cent of the total grant amounts
were transferred between projects within a particular grant without the prior approval of FWS.

       Recommendation
       We recommend that FWS notify the Department that it should accumulate and compare
       actual costs to the amounts budgeted for individual projects within the applicable grant
       agreements and follow the requirements of 43 CFR §12.70.

       Department Response
       The Department stated that it did not entirely concur with the finding contending that the
       grants for which FWS requested accounting at the project level were single projects
       although separately budgeted by jobs. The Department also stated that its accounting
       system did not provide for accounting at a level lower than grant level.

       FWS Response

       FWS stated that it concurred with the finding and recommendation.

       OIG Comments
       While FWS concurred with the finding and recommendation, it did not state whether it
       agreed with the Department’s response or identify specific actions that would be taken to
       address the recommendation. Therefore, we consider the finding unresolved and the
       recommendation not implemented.




                                                13
G.           Asset Management
Using the Department’s computerized inventory listing for Federal Assistance personal
property, 3 which included the property identification number, cost, description, location, and
grant project number, we inspected property at seven sites 4 and the Department headquarters in
San Juan. The Property Division, under the Auxiliary Secretary of Management Affairs,
maintained the inventory listing. Separate inventory listings were maintained for vehicles, boats,
and boat trailers. With the assistance of the staff at each location, we inspected a sample of items
to determine whether the items existed, were in useable condition and properly tagged, or
whether they were disposed of properly. Based on our inspections, we concluded that the
Department’s Federal Assistance property inventory listing is inaccurate and incomplete.

The Manual requires that property records must be kept that have the following information:

         •    description
         •    serial number or other identification number
         •    source of funds used to purchase the equipment
         •    who has title
         •    date of acquisition
         •    cost
         •    percentage of Federal participation in the cost
         •    location, use, and condition
         •    data regarding disposal

The Manual also requires a physical inventory be taken once every 2 years, the results of that
inventory be reconciled to the Department’s inventory records, and a copy of the inventory
results and the reconciliation be provided to the Federal agency that provided the acquisition
funds.

According to 50 CFR § 80.19, the State must maintain current and complete property records in
accordance with requirements contained in the Service Manual and OMB Circular A–102. In
addition, the State is responsible for the accountability and control of all assets to assure that they
are used for the purpose for which they were acquired throughout their useful life (50 CFR
§ 80.18).

The inventory records were inaccurate and incomplete because the Department did not update
them based on the results of the physical inventories or other records maintained for grant
property.

The Department provided an inventory listing for Federal Assistance property that identified 648
items valued at $371,997. However, we found that the value of 61 of these items was not shown


3
  Personal property is defined by the Manual as equipment with a cost of $100 or more, with a useful life of 2 years
or more.
4
  Humacao Natural Reserve; Guanica State Forest; Lucchetti, La Plata, and Guajataca Reservoirs; Boqueron
Wildlife Refuge; and Maricao Fish Hatchery.


                                                         14
on the inventory listing. In addition, we found that the Department inventory did not include all
tagged items.

The Federal Assistance Coordinator provided site inventory records that contained 815 items for
8 grant projects. We compared those inventory records to the corresponding Department
inventories and found that 529 of the 815 items (with assigned property numbers) were not on
the Department inventory, as shown below.

                                                 On Dept        On Site
                         On Dept     On Site    Inventory      Inventory     Items     Not      Not
Grant        Site       Inventory   Inventory   Not on Site   Not on Dept   Sampled   Tagged   Found
FW-10   Humacao              3          30                         27          25        5
F-19    Guanica             12          64                         52          38       17
F-29    Lucchetti          107         148                         41          25       3
F-47    La Plata            12          37                         25          20        4
F-34    Guajataca           90         138            2            50          31        2
F-8     Boqueron                       126                        126          22        2
F-35    Maricao           124                      124                         39        2
F-9     HQ – Fish           8         168                        160            3
F-16    HQ – Fish          93                      93                          23       4
F-24    HQ – Fish          18                      18                          18                1
W-15    HQ - Wildlife      56                      56                          17
W-21    HQ - Wildlife      62         104           6             48           17        1       3
         Totals           585         815          299           529          278       40       4

As shown above, we selected a sample of 278 items for review using the Department and site
inventory listings. Of the items sampled, we could not find 4 items at the location indicated in
the Department’s inventory records, 40 items were not tagged, and 2 items had a property
identification number different from the number in the Department’s records.

Our review of the site inventories identified at least 174 items listed as damaged or “to be
decommissioned.” We inquired as to why these items had not been disposed of and were told
that once an item was added to the inventory it was not removed until the item was inspected and
the Commonwealth’s Treasury Department concurred with the determination. The Treasury
Department charges for these services.

We also found discrepancies with the inventory listings for vehicles, boats, and boat trailers. We
found that 23 vehicles listed on site inventories did not appear on the Department’s vehicle
inventory listings. In addition, there appeared to be inconsistencies in tagging these items. Our
inspections showed that some vehicles were tagged or had the property identification number
painted on the vehicle, and others, mostly newer items, did not. In addition, while most items
had individual property identification numbers, there were three instances where multiple items
shared the same identification number, such as a boat, trailer, and motor at the Humacao Natural
Reserve and a tractor, mower, and back hoe at La Plata Reservoir. There was no official
explanation why this happened, but the staff assisting us speculated that items sharing the same
identification number were probably purchased at the same time.




                                                 15
As a result, we concluded that the Department does not have effective control over its personal
property to ensure that assets purchased with Federal Assistance funds are utilized solely for the
purpose for which they were acquired.

       Recommendation
       We recommend that FWS require the Department to conduct a physical inventory of its
       personal property, including reconciliations of its inventory records with those
       maintained at the Department’s natural reserves and other sites, and update the personal
       property inventory based on the results.

       Department Response
       The Department concurred with the finding and agreed that the inventory was not
       complete and there were inconsistencies in tagging of the equipment. The Department
       further stated that a new inventory system will be purchased by December 31, 2005, and
       that a complete inventory is underway and will be completed by September 30, 2005.

       FWS Response

       FWS stated that it concurred with the finding and recommendation.

       OIG Comments
       While the FWS concurred with the finding and recommendation, it did not state whether
       it agreed with the Department’s response or identify specific actions that would be taken
       to address the recommendation. Therefore, additional information is needed concerning
       the actions taken or planned to resolve the finding and implement the recommendation.
       This information should be included in the corrective action plan.




                                                16
                                                  Appendix 1

PUERTO RICO DEPARTMENT OF NATURAL AND ENVIRONMENTAL
  RESOURCES FINANCIAL SUMMARY OF REVIEW COVERAGE
                Grant       Grant     Outlays
              Number       Amount    SFY 02/03
           F-9-15        $257,764     $172,297
           F-9-16          323,407      172,575
           F-16-14         148,090      115,440
           F-16-15         197,705      183,880
           F-19-12         142,710       89,753
           F-19-13         112,237       81,154
           F-19-14         111,569       68,672
           F-24-12         148,939      147,913
           F-24-13         167,290      161,021
           F-27-12         158,894      151,295
           F-27-13         301,852      217,381
           F-28-12          23,090       23,090
           F-28-13          24,240       24,240
           F-29-11         193,761      180,740
           F-29-12         192,355      183,992
           F-34-11         171,931      111,337
           F-34-12         252,618      216,024
           F-35-7          151,638      178,324
           F-35-8          439,952      445,354
           F-36-10         209,405       95,501
           F-39-9           28,560        2,771
           F-39-10          29,910       20,841
           F-42-3          254,248      244,467
           F-45-1        1,697,557    1,869,459
           F-46-1           55,000       51,560
           F-47-1          377,555       56,488
           FW-1-32         266,943      211,072
           FW-1-33         331,784      310,416
           FW-8-10         122,850       72,083
           FW-8-11         109,794      123,191
           FW-8-12         168,244      184,697
           FW-10-6         171,418      158,797
           FW-10-7         186,182      254,297
           W-13-13          18,420       14,695
           W-13-14          18,420       15,575
           W-14-12          83,899       79,108
           W-14-13          72,894       62,488
           W-15-12         135,451       94,137
           W-21-4          190,141      136,121
           W-21-5          255,974      144,423
           W-21-6          336,131      277,459
           W-22-3           85,330       85,330
           W-22-4           85,330       85,330
           W-23-1          143,132      143,132
           W-23-2          133,486      133,484
           W-23-3          133,486       66,742
           W-24-1          102,290       51,919
                        $9,323,876   $7,970,065

                               17
                                    Appendix 2


PUERTO RICO DEPARTMENT OF NATURAL
  AND ENVIRONMENTAL RESOURCES
           SITES VISITED

            Natural Reserves
               Humacao
            Tortugero Lagoon


               Reservoirs
               Guajataca
                 La Plata
                Lucchetti


               Other Sites
         Boqueron Wildlife Refuge
            Catano Boat Ramp
           Guanica State Forest
          Maricao Fish Hatchery




                   18
                                                                                 Appendix 3


         COMMONWEALTH OF PUERTO RICO,
DEPARTMENT OF NATURAL AND ENVIRONMENTAL RESOURCES
              STATUS OF AUDIT FINDINGS
               AND RECOMMENDATIONS


 Recommendation                     Status                     Action Required
B.1 and B.2                 Finding Unresolved and   Provide a corrective action plan that
                            Recommendations Not      identifies the actions taken or planned to
                            Implemented              resolve the findings and implement the
                                                     recommendations. The plan should also
                                                     include the target date and the official
                                                     responsible for implementation of each
                                                     recommendation. The unimplemented
                                                     recommendations remaining at the end
                                                     of 90 days (after December 19, 2005)
                                                     will be referred to the Assistant
                                                     Secretary for Policy, Management and
                                                     Budget for resolution and/or tracking of
                                                     implementation.

A, C, D.1, D.2, E, F, and   Management Concurs;      Provide a corrective action plan that
G                           Additional Information   identifies the actions taken or planned to
                            Needed                   resolve the findings and implement the
                                                     recommendations, as well as the basis
                                                     for any disagreement with the
                                                     recommendations. The plan should also
                                                     include the target date and the official
                                                     responsible for implementation of each
                                                     recommendation. The unimplemented
                                                     recommendations remaining at the end
                                                     of 90 days (after December 19, 2005)
                                                     will be referred to the Assistant
                                                     Secretary for Policy, Management and
                                                     Budget for resolution and/or tracking of
                                                     implementation.




                                             19
